%

i

V

No.
\

IN THE
SUPREME COURT OF THE UNITED STATES

PETITIONER

WILFREDO TORRES'

vs.

CITY OF NEW YORK, ET AL.

RESPONDENT(S)

PROOF OF SERVICE
I, Wilfredo Torres, do swear or declare that on this date, November 5, 2019, as required by
Supreme Court Rule 29 1 have served the enclosed MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to
the above proceeding or that party's counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

SEE ATTACHED LIST

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

u (y

ozv~

If

t(Signature)

LIST OF PARTIES:
City of New York-Law Department
Re: New York City Police Department
Attn. Carolyn K. Depoian, Esq.
Attn. Jessica Engel, Esq.
100 Church Street
New York, N.Y. 10007
Bellevue South Associates
Re: Bellevue South Associates
Attn. James Robert Pigott, Esq.
902 Broadway 13th. Floor
New York, N.Y. 10010
Rose & Rose Law Firm
Re: The Blackstone Group
Attn. Dean Dreiblatt, Esq.
Attn. Zachary Rose, Esq.
291 Broadway 13th. Floor
New York, N.Y. 10007
Heidell, Pittoni, Murphy & Bach Law Firm
Re; Health and Hospitals Corporation
Attn. Doreen Duffici, Esq.
Attn. Gabrielle La Marche DeYoung, Esq.
99 Park Avenue #7
New York, N.Y. 10016
Cyrus Vance, Esq.
New York County District Attorney
1 Hogan Place
New York, N.Y. 10007

\
' >

-2-

The Legal Aid Society
Attn. Janet Sabel, Esq.,
199 Water Street #6
New York, N.Y. 10038
Central Intelligence Agency
Office of the Inspector General
Washington, D.C. 20505
U.S. Department of Justice
Federal Bureau of Investigation
Office of the Inspector General
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001

